Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Albuquerque Police Department
Albuquerque, New Mexico

Report No. GR-80-03-001


December 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Albuquerque, New Mexico, Police Department (Albuquerque PD).  The purpose of the grants was to enhance community policing.  The Albuquerque PD was awarded a total of $12,005,703 to hire 93 additional police officers and redeploy the equivalent of 74 existing full?time police officers from administrative duties to community policing.
We reviewed the Albuquerque PD's compliance with all seven essential grant conditions, and we found weaknesses in all seven of the areas we tested:  budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, redeployment tracking, retention of officer positions, and enhancement of community policing activities.  As a result of the deficiencies identified below, we question $4,152,447 in grant funds received and recommend an additional $3,468,218 be put to better use.1

In fiscal year (FY) 2001, the city's official budget reported retroactive reductions of city sworn full-time equivalent (FTE) positions for previous FYs 1998 and 1999.  In our judgment, the retroactive reductions were reported to support the Albuquerque PD's claim to the COPS Office that severe financial distress required the city to reduce the number of sworn FTE positions in these FYs, although we found that the City Council did not require a reduction in force.  In our judgment, the Albuquerque PD is in violation of the COPS non-supplanting requirement because it did not increase its police force of sworn officers or FTE positions by the number of officers and civilians funded by the COPS grants.
The Albuquerque PD obtained a waiver from the COPS Office based upon a claim of severe financial distress for the UHP local match, after initially receiving the grant with a required local match.  Because of the waiver, the Albuquerque PD received UHP grant funding at $117,414 per officer, or $42,414 over the $75,000 statutory limit per officer.  In our judgment, the operating revenue received by the Albuquerque PD did not affect its hiring budget or support a waiver.  Therefore, a waiver based on a claim of severe financial distress was not warranted.
The Albuquerque PD used funds previously budgeted for law enforcement as its local match for the MORE 95 grant.
The Albuquerque PD charged unallowable and unsupported costs of $2,507,235, UHP; $311,238, CIS; $1,144,442, MORE 95; and $189,532, MORE 98 grants.
In our judgment, because of the violation of the non-supplanting requirement, the Albuquerque PD will not retain the MORE 98 grant-funded civilian positions that were scheduled to expire on February 28, 2002, or the UHP- or CIS-funded positions when these grants expire.
The Albuquerque PD could not demonstrate the redeployment of 26 sworn officer FTE positions into community policing activities as a result of the MORE 95 grant.  Community policing was not enhanced as a result of the grant.
The Albuquerque PD did not redeploy any of the eight sworn officers into community policing as a result of funding eight civilians from the MORE 98 grant.  Community policing was not enhanced as a result of the grant.
The Albuquerque PD backfilled only three of eight civilian positions and hired one new employee prior to the grant start date for the MORE 98 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.